<html>
<title> - READY-TO-EAT OR NOT?: EXAMINING THE IMPACT OF LEAFY GREENS MARKETING AGREEMENTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
 READY-TO-EAT OR NOT?: EXAMINING THE IMPACT OF LEAFY GREENS MARKETING 
                               AGREEMENTS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2009

                               __________

                           Serial No. 111-126

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
64-914                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8aedfae5cae9fff9fee2efe6faa4e9e5e7a4">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      LYNN A. WESTMORELAND, Georgia
JIM COOPER, Tennessee                PATRICK T. McHENRY, North Carolina
GERRY E. CONNOLLY, Virginia          BRIAN P. BILBRAY, California
MIKE QUIGLEY, Illinois               JIM JORDAN, Ohio
MARCY KAPTUR, Ohio                   JEFF FLAKE, Arizona
ELEANOR HOLMES NORTON, District of   JEFF FORTENBERRY, Nebraska
    Columbia                         JASON CHAFFETZ, Utah
PATRICK J. KENNEDY, Rhode Island     AARON SCHOCK, Illinois
DANNY K. DAVIS, Illinois             ------ ------
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
ELIJAH E. CUMMINGS, Maryland         JIM JORDAN, Ohio
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
DIANE E. WATSON, California          DAN BURTON, Indiana
JIM COOPER, Tennessee                MICHAEL R. TURNER, Ohio
PATRICK J. KENNEDY, Rhode Island     JEFF FORTENBERRY, Nebraska
PETER WELCH, Vermont                 AARON SCHOCK, Illinois
BILL FOSTER, Illinois
MARCY KAPTUR, Ohio
                    Jaron R. Bourke, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 29, 2009....................................     1
Statement of:
    Cobb, Kelly, survivor of E. Coli poisoning; Scott Horsfall, 
      chief executive officer, California Leafy Greens Marketing 
      Board; Dale Coke, farmer and member, Community Alliance 
      with Family Farmers; and Caroline Smith DeWaal, director of 
      food science, Center for Science in the Public Interest....    51
        Cobb, Kelly..............................................    51
        Coke, Dale...............................................    63
        DeWaal, Caroline Smith...................................    70
        Horsfall, Scott..........................................    57
    Taylor, Michael R., Senior Advisor to the Commissioner of 
      Food and Drugs, U.S. Food and Drug Administration; and 
      Rayne Pegg, Administrator, Agriculture Marketing Service, 
      U.S. Department of Agriculture.............................     8
        Pegg, Rayne..............................................    28
        Taylor, Michael R........................................     8
Letters, statements, etc., submitted for the record by:
    Cobb, Kelly, survivor of E. Coli poisoning, prepared 
      statement of...............................................    53
    Coke, Dale, farmer and member, Community Alliance with Family 
      Farmers, prepared statement of.............................    65
    DeWaal, Caroline Smith, director of food science, Center for 
      Science in the Public Interest, prepared statement of......    72
    Horsfall, Scott, chief executive officer, California Leafy 
      Greens Marketing Board, prepared statement of..............    59
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     4
    Pegg, Rayne, Administrator, Agriculture Marketing Service, 
      U.S. Department of Agriculture, prepared statement of......    30
    Taylor, Michael R., Senior Advisor to the Commissioner of 
      Food and Drugs, U.S. Food and Drug Administration, prepared 
      statement of...............................................    11


 READY-TO-EAT OR NOT?: EXAMINING THE IMPACT OF LEAFY GREENS MARKETING 
                               AGREEMENTS

                              ----------                              


                        WEDNESDAY, JULY 29, 2009

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, the Honorable Dennis 
J. Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Jordan, Cummings, and 
Watson.
    Staff present: Jaron R. Bourke, staff director; Jean Gosa, 
Clerk; Charisma Williams, Staff Assistant; Leneal Scott, 
Information Systems Manager, full committee; Adam Hodge, Deputy 
Press Secretary, full committee; Dan Blankenburg, minority 
director of outreach and senior advisor; Adam Fromm, minority 
chief clerk & Member Liaison; Ashley Callen, minority Counsel; 
and Molly Boyl, minority Professional Staff Member.
    Mr. Kucinich. The committee will come to order. I am 
Congressman Dennis Kucinich, Chair of the Domestic Policy 
Subcommittee of Oversight and Government Reform. I am joined 
today by the ranking member of the subcommittee, Mr. Jordan of 
Ohio.
    Today's hearing will examine the safety of ready to eat 
produce and the successes and challenges posed by the 
California Leafy Greens Handler Marketing Agreement. For the 
sake of this hearing we are going to use the acronym CALGMA. 
When you hear CALGMA, it stands for California Leafy Greens 
Handler Marketing Agreement. We are going to also be talking 
about the proposed nationalization of that agreement.
    The hearing will focus on bagged or value-added leafy 
greens marketed as ready to eat. Consumers are quite familiar 
with those products. We are going to look at the role of 
private industry and government in regulating these products 
and the economic, environmental, and food safety impacts of 
that regulation.
    Without objection, the Chair and the ranking minority 
member will have 5 minutes to make opening statements, followed 
by opening statements of other Members not to exceed 3 minutes 
by any Member who seeks recognition.
    Without objection, Members and witnesses have five 
legislative days to submit a written statement or extraneous 
materials for the record.
    Without objection, the chairman and ranking member will 
each have 10 minutes for questions in the first round, after 
which we will proceed under the 5-minute rule.
    Pre-cut packaged leafy greens marketed as ready to eat have 
become increasingly popular, capturing 70 percent of the leafy 
greens market. Americans appreciate the convenience of this 
partially processed product and are eating more fresh produce 
as a result. That is a good and important development that will 
likely help to improve the health of Americans.
    Yet as the popularity of bagged lettuce and spinach has 
increased, so have rare but serious food-borne illnesses 
associated with it. Outbreaks of E. coli 0157 and other 
pathogens have occurred in relation to pre-cut packaged leafy 
greens at least once a year practically every year since 2003.
    Regulation to prevent these outbreaks rest in the hands of 
the industry. The California Leafy Greens Handler Marketing 
Agreement, CALGMA, was implemented to stave off regulatory 
action by the State of California. CALGMA ensures adherence to 
a specified set of good agricultural practices designed 
primarily by the Food and Drug Administration to improve the 
safety of leafy greens.
    In spite of its name, CALGMA is having an impact on farmers 
in all parts of the Nation due to the requirement of compliance 
with CALGMA imposed by national processing and retailing 
outlets that buy and market their produce.
    The USDA is currently proposing the creation of a national 
marketing agreement along the lines of CALGMA.
    There is much good in the CALGMA initiative. CALGMA 
embodies private industry's positive efforts to safeguard the 
American food supply. Handlers responsible for growers' 
compliance with food safety metrics pay for auditors trained by 
the USDA and hired by the CALGMA Board to carry out surprise 
and scheduled inspections of standards adopted voluntarily by 
signatory farmers.
    CALGMA, however, has some blind spots as well. It condones 
a processing activity favored by the ready to eat processing 
industry known as coring, coring lettuce in the field. It only 
suggests minimal guidelines for sanitary treatment of harvest 
equipment used for coring in spite of recent scientific 
research identifying the potential for transferring pathogens 
deep into the cored lettuce where the subsequent washing 
process would be unable to reach.
    CALGMA is silent on the use of certain packaging of ready 
to eat produce known as modified atmosphere packaging, the bags 
of ready to eat greens.
    CALGMA does not require an enforceable standard of cold 
chain of distribution. It does not impose tough requirements on 
packagers and distributors relating to the ``best consumed by'' 
date that is stamped on the ready to eat packaging. People have 
seen those. They don't have any tough requirements on those 
packagers and distributors who put that stamp on there.
    Scientists tell us that if bagged produce labeled as ready 
to eat is not constantly refrigerated through the distribution 
chain, it quickly becomes a perfect habitat for bacterial 
growth. Harmful bacteria such as E. coli 0157 multiply unseen 
to and undetectable by the eye of the consumer. Legions of 
pathogens can thereby invade the unsuspecting consumers' 
intestinal tract, overwhelming his or her immune system and 
causing severe and painful complications or, in some cases, 
death. Everyone who has experienced severe food poisoning knows 
what is at stake.
    While it is largely silent on key questions applying to 
upstream processing and distribution of ready to eat produce, 
CALGMA has a lot to say about farming practices and land 
stewardship. Small and organic farmers in particular have 
expressed concern about the costs and the scientific 
justification for some of CALGMA's requirements. Some of 
CALGMA's metrics seem to be in direct conflict with 
environmental protection and widely accepted agricultural 
practices. In some cases, streams have been contaminated, 
wildlife refuges destroyed, and biodiversity threatened by 
farmers' efforts to remain in compliance with CALGMA.
    Today we hope to address why CALGMA's regulatory framework 
has focused solely on farming practices to the exclusion of the 
rest of the supply chain. It seems the farmers have taken the 
brunt of the burden of minimizing contamination when it may 
make more scientific sense to focus attention on the 
processing, packaging, and distribution of ready to eat 
produce.
    Consumers have a right to expect that the food they eat is 
safe. It is in the public health interest that Americans 
consume greater amounts of raw vegetables. But whether or not 
nationalizing CALGMA as the USDA proposed is the best way to 
achieve those goals is a question of this hearing.
    I look forward to hearing from all of our witnesses today 
on this important issue.
    At this time I recognize the honorable Congressman Jordan, 
the ranking member of the committee, from the State of Ohio.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T4914.001

[GRAPHIC] [TIFF OMITTED] T4914.002

    Mr. Jordan. Thank you, Chairman. I want to thank you for 
holding this hearing to examine the impact of the leafy greens 
marketing agreements.
    Most importantly, we need to have a food supply that is 
safe. Americans should be able to feel confident that the 
produce they buy at the grocery store or that is served to them 
at restaurants will not make them sick.
    Leafy greens marketing agreements such as CALGMA may be an 
effective way to ensure safer produce. However, additional 
guidelines and regulations may be overly burdensome to some 
farmers, especially small or family owned and run farms. I look 
forward to hearing from our witnesses about their experiences 
with the marketing agreements.
    The FDA and USDA also play key roles in food safety and 
agricultural marketing. I am interested to hear how these roles 
may change if a leafy greens marketing agreement is made 
national.
    Additionally, I hope that our witnesses can discuss the 
implications of H.R. 2749, the Food Safety Enhancement Act of 
2009, which was scheduled to be voted on yesterday and may in 
fact be voted on later today. I look forward to hearing your 
thoughts on that legislation as well.
    I also look forward to examining the pros and cons of 
making national the CALGMA agreement.
    I thank our witnesses for taking the time to testify here 
in front of the committee today. With that, I yield back, Mr. 
Chairman.
    Mr. Kucinich. I thank the gentleman. Does the gentlelady 
from California have an opening statement?
    Ms. Watson. I do, Mr. Chairman. I want to thank you so much 
for holding today's hearing to examine the leafy greens market; 
the role of private industry and Government in regulating these 
products; and the economic, environmental, and food safety 
impacts of the California Leafy Greens Handlers Marketing 
Agreement. The hearing is happening at a very opportune time.
    Since 2003, pre-cut bagged lettuce has developed into the 
second fastest growth industry in U.S. grocery sales. I am from 
California. We believe in salads, making it critically 
important that adequate precautions are taken and analyses 
conducted to ensure that this increasingly popular food is not 
just nutritious but safe.
    We have taken steps, Mr. Chairman, in the State of 
California to regulate the sale of not only the leafy greens 
packages but those in the bins as well.
    Some 98\1/2\ percent of the E. coli outbreaks reported in 
leafy greens have been associated with bagged and pre-cut 
greens. The infamous 2006 spinach outbreak resulted in over 200 
hospitalizations, nearly $400 million in lost product, and 
three deaths confirmed by the FDA.
    In response to this and other similar instances, industry 
leaders developed the California Leafy Greens Handlers 
Marketing Agreement to allow growers to join a voluntary 
regulatory framework which now encompasses 99 percent of 
California's leafy greens business and is being considered for 
official nationalization. I chaired those committee meetings, 
Mr. Chairman, when I was Chairperson of Health and Human 
Services.
    The CALGMA includes a food safety inspection program 
conducted by the USDA and the enforcement of metrics or 
regulations developed by scientists, governmental officials, 
growers, processors, and businesses to reduce microbial 
contamination of leafy greens in the field-to-fork supply 
chain.
    While I am pleased that the farming industry has taken the 
initiative to create this comprehensive framework for food 
safety, I believe it is important to scrutinize its 
effectiveness and its impact on the environment. Some have 
argued that the rules placed on farmers by CALGMA conflict with 
the movement toward organic and biologically diverse farming 
methods and could be actually harming the environment. 
Furthermore, it may prove to be a counterintuitive to create 
such regulations before there is conclusive scientific 
knowledge about how E. coli makes its way into the leafy greens 
supply.
    I would like to thank you, Mr. Chairman, for allowing me to 
make this presentation. I am sorry that I cannot stay. They 
just called an emergency meeting of the Progressive Caucus to 
discuss the health care reform bill at 2:30. I just wanted you 
to know that. But I have staff here and I will be hearing from 
them as to the witnesses and their testimony. So thank you so 
much. I yield back.
    Mr. Kucinich. I thank the gentlelady. I am sure she will 
convey my sentiments in that meeting of the Progressive Caucus. 
You can let them know that I am given the responsibility of 
chairing this hearing. Thank you for being here with that 
opening statement.
    If there are no additional opening statements, the 
subcommittee will now receive testimony from the witnesses 
before us today. I want to start by introducing our first 
panel.
    Mr. Michael R. Taylor is the Senior Advisor to the 
Commissioner of Food and Drugs at the Food and Drug 
Administration. Mr. Taylor, welcome. Mr. Taylor previously 
served as Deputy Commissioner for Policy and is a member of the 
National Academy of Science's Committee on Environmental 
Decision-Making Under Uncertainty. He has held numerous 
positions in the field of food safety and research, among them 
Administrator of the Food Safety and Inspection Services at the 
U.S. Department of Agriculture and Vice President for Public 
Policy at Monsanto Corp. He was also a practicing attorney in 
the field at the law firm of King & Spalding.
    Ms. Rayne Pegg is the Administrator of the Agriculture 
Marketing Service, AMS, the marketing and regulatory arm of the 
U.S. Department of Agriculture. Welcome, Ms. Pegg. Prior to 
being appointed Administrator at AMS, Ms. Pegg was Deputy 
Secretary of Legislation and Policy for the California 
Department of Food and Agriculture. She has also served as 
director of International Trade and Plant Health for the 
California Farm Bureau Federation's National Affairs and 
Research Division and as the director of Governmental Relations 
to the Agricultural Council of California.
    Thank you for appearing before our subcommittee today. It 
is the policy of the Committee on Oversight and Government 
Reform to swear in all witnesses before they testify. I would 
ask that you rise and please raise your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you. Let the record reflect that the 
witnesses answered in the affirmative.
    I ask that each of the witnesses now give a brief summary 
of their testimony and to keep this summary under 5 minutes in 
duration. I want you to know that your entire statement and 
anything else you want to append to it will be included in the 
hearing record.
    Mr. Taylor, you will be our first witness. You may proceed. 
You have 5 minutes.

    STATEMENTS OF MICHAEL R. TAYLOR, SENIOR ADVISOR TO THE 
      COMMISSIONER OF FOOD AND DRUGS, U.S. FOOD AND DRUG 
  ADMINISTRATION; AND RAYNE PEGG, ADMINISTRATOR, AGRICULTURE 
       MARKETING SERVICE, U.S. DEPARTMENT OF AGRICULTURE

                 STATEMENT OF MICHAEL R. TAYLOR

    Mr. Taylor. Thank you, Chairman Kucinich and Mr. Jordan. I 
am Michael Taylor, Senior Advisor to the Commissioner at the 
Food and Drug Administration which, as you know, is part of the 
Department of Health and Human Services. I am pleased to be 
with you today to discuss issues related to the safety of fresh 
produce.
    As you know, FDA is the Federal agency that is responsible 
for regulating most of the food supply except for meat, 
poultry, and processed egg products which are overseen by our 
partners at the U.S. Department of Agriculture. FDA is 
committed to ensuring that the U.S. food supply continues to be 
among the safest in the world.
    President Obama has made it a personal commitment to 
improving food safety. On July 7th of this year, the multi-
agency Food Safety Working Group that the President established 
issued its key findings on how to upgrade the food safety 
system for the 21st century. The working group recommends a new 
public health-focused approach to food safety based on three 
core principles: prioritizing prevention, strengthening 
surveillance and enforcement, and improving response and 
recovery. FDA has been an integral part of the working group's 
continuing efforts to establish these principles.
    Fresh produce, the topic of today's hearing, presents 
special safety challenges, as the chairman outlined. The number 
of illnesses associated with fresh produce is a continuing 
concern for FDA.
    The increased consumption of produce in its fresh or raw 
form, including ready to eat bagged products, reflects growing 
consumer interest in healthy eating, as you indicated, which is 
of course a desirable trend from a public health standpoint. 
But these new consumption patterns and products challenge our 
food safety efforts. Fresh produce has the potential to be a 
source of food-borne illness because it is consumed raw with 
only minimal processing and generally without interventions 
that would eliminate any pathogens that may be present.
    Because most produce is grown in an outdoor environment, it 
is susceptible to contamination from pathogens present in the 
soil, in manure used as fertilizer, from the presence of 
animals in or near fields or packing areas, or in agricultural 
water or water used for washing or cooling. Produce may also be 
vulnerable to contamination due to inadequate worker health and 
hygiene protections, environmental conditions, inadequate 
production safeguards, or inadequate sanitation of equipment 
and facilities.
    Fresh produce is produced on tens of thousands of farms and 
contamination at any one step in the growing, packing, and 
processing chain can be amplified throughout the subsequent 
steps. But we also know that the possibility of harmful 
contamination can be minimized by understanding these potential 
entry points for pathogens and by implementing preventative 
measures wherever possible throughout the system.
    Thus, in keeping with the Obama administration's prevention 
oriented food safety strategy, FDA intends to improve safety of 
fresh produce by establishing enforceable standards for the 
implementation of science-based preventative controls 
throughout the chain of production, processing, and 
distribution. These regulations will capitalize on what we and 
the produce industry have learned over the past decade since we 
published our good agricultural practices guidance in 1998. 
They will tap the best science to develop appropriate criteria 
or metrics for ensuring the effectiveness of preventative 
controls in particular production and processing settings.
    In the short term, FDA will issue commodity-specific 
guidance for industry on the measures that they can implement 
now to prevent or minimize microbial hazards of fresh produce. 
FDA will soon publish draft guidance for improving the safety 
of leafy greens, melons, and tomatoes, three specific 
commodities that have been associated with food-borne illness 
outbreaks. The guidance describe preventative controls that 
industry can implement to reduce the risk of microbial 
contamination in the growing, harvesting, transporting, and 
distribution of these commodities.
    It is not enough, of course, to issue regulations and 
guidance. We must also ensure that the preventative measures 
they call for are widely and effectively implemented. To that 
end, FDA will work with its Federal and State partners to plan 
and implement an inspection and enforcement program aimed at 
ensuring high rates of compliance with the produce safety 
regulations. FDA recognizes the importance of leveraging the 
expertise and resources of other Federal, State, and local 
agencies to be sure that the industry understands the new 
requirements and to help them achieve greater compliance.
    One way we can leverage resources is to work with the 
Agricultural Marketing Service as they consider and implement 
marketing agreements and orders. Incorporating FDA standards 
into voluntary marketing agreements and then conducting audits 
to ensure compliance by those who subscribe to such agreements 
thus contributes to the goal we all share, which is widespread 
compliance with modern preventative control measures. We 
believe that AMS, by incorporating FDA's produce safety 
standards in marketing agreements or orders, can help ensure 
high rates of compliance with FDA's standards.
    In addition to highlighting measures that the Executive 
branch can implement to enhance food safety, the White House 
Food Safety Working Group also noted the need for Congress to 
modernize the food safety statutes. Legislative authorities for 
FDA that would enhance the safety of products include the 
enhanced ability to require science-based preventative 
controls, the enhanced ability to establish and enforce 
performance standards to measure the implementation of proper 
food safety procedures, access to basic food safety records, a 
new inspection mandate, and other tools to foster compliance 
and other provisions.
    The Food Safety Enhancement Act, H.R. 2749, being 
considered by the House today addresses these needs. The Obama 
administration strongly supports its passage.
    I thank you again for the chance to be here, Mr. Chairman. 
I look forward to answering your questions.
    [The prepared statement of Mr. Taylor follows:]

    [GRAPHIC] [TIFF OMITTED] T4914.003
    
    [GRAPHIC] [TIFF OMITTED] T4914.004
    
    [GRAPHIC] [TIFF OMITTED] T4914.005
    
    [GRAPHIC] [TIFF OMITTED] T4914.006
    
    [GRAPHIC] [TIFF OMITTED] T4914.007
    
    [GRAPHIC] [TIFF OMITTED] T4914.008
    
    [GRAPHIC] [TIFF OMITTED] T4914.009
    
    [GRAPHIC] [TIFF OMITTED] T4914.010
    
    [GRAPHIC] [TIFF OMITTED] T4914.011
    
    [GRAPHIC] [TIFF OMITTED] T4914.012
    
    [GRAPHIC] [TIFF OMITTED] T4914.013
    
    [GRAPHIC] [TIFF OMITTED] T4914.014
    
    [GRAPHIC] [TIFF OMITTED] T4914.015
    
    [GRAPHIC] [TIFF OMITTED] T4914.016
    
    [GRAPHIC] [TIFF OMITTED] T4914.017
    
    [GRAPHIC] [TIFF OMITTED] T4914.018
    
    [GRAPHIC] [TIFF OMITTED] T4914.019
    
    Mr. Kucinich. Thank you very much, Mr. Taylor. Ms. Pegg, 
you may proceed. Thank you.

                    STATEMENT OF RAYNE PEGG

    Ms. Pegg. Hello, Mr. Chairman and members of the 
subcommittee. Good afternoon and thank you for the invitation 
to appear here before you today. I appreciate the opportunity 
to share with you a brief overview of our activities regarding 
marketing orders and agreements for fruits and vegetables.
    As Mr. Taylor stated, FDA is the Federal agency responsible 
for food safety of fruits and vegetables. At USDA, the Food 
Safety and Inspection Service holds similar responsibility for 
meat, poultry, and egg products.
    The mission of AMS is to facilitate the marketing of 
agricultural products. AMS is not a food safety agency. We are 
an agency with a long history of working with producers and 
processors. Our marketing programs involve the inspection of 
product quality and the verification of production processes.
    Under the Agricultural Marketing Agreement Act of 1937, 
marketing orders and agreements assist farmers and handlers by 
allowing them to collectively work to solve marketing problems. 
These programs are industry-initiated and subject to public 
review.
    There is a seven step process in initiating a marketing 
agreement. The industry petitions the USDA, which recently 
occurred on the national leafy greens marketing agreement. USDA 
holds public meetings, which we will be having on the national 
leafy greens marketing agreement in September and October. We 
review all comments and either terminate the proceedings or 
publish a proposed rule.
    In the past we have terminated proceedings of a potential 
marketing agreement or order. USDA publishes a final agreement 
and appoints a committee. The committee develops best 
practices. Those best practices are published for public 
comment and then USDA publishes final metrics or best 
practices.
    Marketing agreements only apply to handlers who voluntarily 
sign an agreement. Fees are collected from handlers to cover 
local costs of administering these programs.
    The act provides authority to regulate the quality of 
commodities through Federal agreements. USDA considers harmful 
pathogens and toxins to be a characteristic of lower quality 
products. Federal marketing orders and agreements include 
minimum quality grade requirements which can be identified by 
the presence of mold, insect infestation, foreign material, or 
other contaminants.
    The marketing order for California prunes has had 
inspection and fumigation requirements relative to live insect 
infestations since 1961. Since 1977, California raisins have 
required the absence of dirt, insects, and mold. Beginning in 
2005, pistachio handlers were required to test all nuts 
destined for human consumption for Aflatoxin, which, if 
present, would lower the quality and market value of 
pistachios.
    On June 8th, AMS received an industry proposal for a 
national marketing agreement for lettuce, spinach, and other 
leafy greens. The purpose of the proposed agreement is to 
enhance the quality and increase the marketability of fresh 
leafy greens vegetable products through the application of good 
agricultural and handling practices. Requirements implemented 
under the proposed program would be science-based, conform to 
FDA guidance to minimize food safety risks, and be subject to 
USDA oversight.
    The program would only be binding on signatory handlers. 
The program would require signatories to verify that any 
product handled comes from producers or handlers using verified 
good agricultural and handling practices. The program would 
authorize unannounced audits and apply to imports. Any product 
deemed an immediate food safety risk concern by USDA inspection 
would be reported to FDA.
    We are aware that there are concerns from various groups on 
the proposed marketing agreement. We welcome comments from 
those and other interested parties and will carefully consider 
them.
    To conclude, Mr. Chairman, I would like to reiterate that 
the Federal food safety policies for fruits and vegetables fall 
under the jurisdiction of FDA. However, AMS does have 
significant experience in the design and delivery of marketing 
programs, including marketing orders and agreements. The 
process for potentially establishing a marketing order or 
agreement is an open and transparent process in which AMS 
carefully considers all viewpoints.
    I am happy to respond to any questions.
    [The prepared statement of Ms. Pegg follows:]

    [GRAPHIC] [TIFF OMITTED] T4914.020
    
    [GRAPHIC] [TIFF OMITTED] T4914.021
    
    [GRAPHIC] [TIFF OMITTED] T4914.022
    
    [GRAPHIC] [TIFF OMITTED] T4914.023
    
    [GRAPHIC] [TIFF OMITTED] T4914.024
    
    [GRAPHIC] [TIFF OMITTED] T4914.025
    
    [GRAPHIC] [TIFF OMITTED] T4914.026
    
    [GRAPHIC] [TIFF OMITTED] T4914.027
    
    [GRAPHIC] [TIFF OMITTED] T4914.028
    
    [GRAPHIC] [TIFF OMITTED] T4914.029
    
    Mr. Kucinich. I thank the gentlelady.
    We will now proceed with 10 minutes of questions beginning 
with myself. Then I will turn it over to Mr. Jordan. I would 
like to start with Mr. Taylor.
    Mr. Taylor, ready to eat is a marketing slogan assuring 
that the salad in the package is safe for consumption without 
requiring further washing or cutting by the consumer. The 
California Leafy Greens Handlers Marketing Agreement, CALGMA, 
is a voluntary industry-sponsored means of ensuring the quality 
and safety of processed leafy greens, including those to be 
marketed as ready to eat. It was developed to preempt 
legislative regulatory action from the California State 
Assembly.
    Has CALGMA made pre-cut salads safer than they were before? 
If yes, what is the basis for that opinion?
    Mr. Taylor. Mr. Chairman, the producer practices embodied 
in that agreement, if implemented, make a contribution to 
making the food safer. I think we all understand that the 
safety of the product ultimately depends on what happens not 
only at that point on the production end but through processing 
and the way the product is handled throughout.
    Mr. Kucinich. When you say contribution, what do you mean? 
What is the science behind that?
    Mr. Taylor. The safety of these products really depends 
fundamentally on prevention of contamination in the first 
place. For a raw, fresh product, we don't have processing steps 
that decisively kill pathogens. So prevention throughout the 
system is the key to safety. The point is that the on farm 
practices embodied in the agreement make a contribution.
    Mr. Kucinich. But isn't it true that since CALGMA went into 
effect there have still been food-borne illnesses traced to the 
bagged leafy lettuce produce?
    Mr. Taylor. Absolutely.
    Mr. Kucinich. Do you remember some of them. The 2008 
romaine lettuce outbreak, do you remember that?
    Mr. Taylor. I was not in the Government then but I am aware 
of these outbreaks.
    Mr. Kucinich. Are you aware of iceberg lettuce outbreak 
also in that year?
    Mr. Taylor. Yes, I think.
    Mr. Kucinich. Isn't it true that nearly every case since 
1999 of outbreaks of food-borne pathogens that were traced to 
leafy greens involved pre-cut packaged leafy greens and not 
whole leafy greens, Mr. Taylor?
    Mr. Taylor. Improving the safety of these products is a 
work in progress, Mr. Chairman. Let me just mention another 
thing----
    Mr. Kucinich. No, wait. You didn't answer my question, 
though. One of the things about being in front of this 
committee, it is a lot easier if you answer the question. You 
didn't answer the question. Please answer the question.
    Mr. Taylor. If the question is whether the marketing 
agreement has solved the problem of fresh produce safety, no. 
The answer is no, of course it hasn't.
    Mr. Kucinich. I asked you a question, though. You didn't 
answer. I am going to repeat it just to make sure that you 
heard it. I asked you, isn't it true that in nearly every case 
since 1999, outbreaks of food-borne pathogens that were traced 
to leafy greens involved pre-cut packaged leafy greens and not 
whole leafy greens? Yes or no.
    Mr. Taylor. Yes.
    Mr. Kucinich. Thank you. Now, Mr. Taylor, doesn't that 
suggest that the processing of leafy greens is a significant 
factor in causing outbreaks of food-borne pathogens?
    Mr. Taylor. There are features of that process that do 
create an environment for pathogen growth. You are absolutely 
right.
    Mr. Kucinich. Is that a yes or a no?
    Mr. Taylor. Yes.
    Mr. Kucinich. OK. According to the CEO of CALGMA, the FDA 
reviewed the good agricultural practices and metrics imposed by 
CALGMA. The USDA insists that its marketing agreement program 
is consistent with FDA guidelines and regulations.
    One thing we have noticed in our review of CALGMA is that a 
lot of requirements are imposed on farmers while comparatively 
less burdensome guidance is suggested to the processors who buy 
the greens from the farmers and turn them into pre-cut packaged 
salads for marketing to the public. Even when I look at your 
testimony, you are still pretty heavy on the farmers' side. For 
instance, CALGMA prohibits farmers from planting within 400 
feet of a hedge row on the questionable basis that wildlife 
poses a significant risk of contamination, but CALGMA allows 
the processing activity of coring lettuce in the field, an 
activity that the FDA acknowledges has the potential for 
contamination, with only minimal guidance for the washing and 
storing of knives used to core lettuce. It seems to be a double 
standard, Mr. Taylor.
    Is CALGMA's imposition of detailed requirements on farmers 
but only suggested guidelines on handlers and distributors 
justified by the science on how to make pre-cut salads safer?
    Mr. Taylor. The science says we need enforceable 
preventative measures throughout the system from farm through 
distribution. That is why the Food and Drug Administration is 
going to issue regulations that would do exactly that.
    Mr. Kucinich. The science says that but what about CALGMA's 
requirements on farmers as opposed to guidance on handlers and 
distributors? What you are saying, then, is there is a gap. Are 
you saying that?
    Mr. Taylor. There is a lot of work to do to improve the 
safety of produce. Absolutely, Mr. Chairman.
    Mr. Kucinich. In fact, doesn't the FDA's 2008 guidance for 
the industry to minimize microbial food safety hazards for 
fresh cut foods and vegetables incorporate specific standards 
for processing, packaging, and transporting leafy greens that 
CALGMA does not? Isn't that true?
    Mr. Taylor. Yes.
    Mr. Kucinich. OK, we are making progress.
    Ms. Pegg, I can't tell you how many times farmers, 
especially small farmers, have told me that the USDA represents 
everybody but the farmers. Let us hope the new administration 
succeeds in changing that impression.
    In the next panel we are going to hear from a farmer who 
has a lot of criticism for CALGMA. We are going to hear from a 
survivor of E. coli poisoning related to pre-cut lettuce that 
she ate in 2008.
    As you know, USDA is actively promoting the nationalization 
of CALGMA. What is the USDA's position on CALGMA's apparent 
double standard in that it prescribes specific if not always 
scientifically supportable requirements on farmers while it 
condones questionable processing protocols that benefit 
processing companies such as coring lettuce in the field?
    Ms. Pegg. We do not have a position on the current national 
leafy greens marketing proposal. That is before the public. It 
is at the very beginning of the process. The hearings will 
begin in September and October.
    Mr. Kucinich. What do you think?
    Ms. Pegg. What do I think?
    Mr. Kucinich. What do you think?
    Ms. Pegg. I think at the end of the day the program needs 
to work for small producers. It needs to work for different 
cultural practices and regional differences. I think at the end 
of the day that is the only way you are going to have the best 
national program.
    Mr. Kucinich. At the end of the day do you think the 
processing companies ought to have protocols that are 
protective of the consumers?
    Ms. Pegg. Processors, yes, should. Everyone has to play a 
part in food safety in the chain.
    Mr. Kucinich. Including processors? Not just the farmers 
but processors as well?
    Ms. Pegg. Yes, of course.
    Mr. Kucinich. Ms. Pegg, if CALGMA becomes nationalized, 
there will likely be increased costs on growers, farmers, as 
they take mitigation measures to be in compliance with the 
CALGMA requirements. These costs will be both financial as well 
as environmental. Examples include the costs of turning areas 
of land that might have been previously wild into empty lots 
and the associated land erosion, runoff, and stream 
contamination that follow. With this in mind, do you believe 
that the USDA should consider environmental impacts when 
promoting marketing agreements and regulating food production?
    Ms. Pegg. Yes. We must consider environmental impacts. We 
must make sure that it is compliant with State and Federal 
laws.
    I think the other point you bring up is that right now 
farmers are facing, and I just got an email last night from a 
farmer I know in California, buyers who are requiring good 
agricultural practices. So even without the marketing agreement 
you are seeing buyers demanding good agricultural practices of 
farmers.
    Mr. Kucinich. Let us talk about a specific issue that would 
matter to the processors as opposed to the farmers. Isn't it 
true that the ``best consumed by'' expiration date that is 
stamped is now 15 to 17 days after the produce leaves the 
processing plant while only 7 years ago the ``best consumed 
by'' date for fresh cut produce was more like 5 to 10 days?
    Ms. Pegg. I actually have no knowledge of the ``best 
consumed by'' date. I think that may be an FDA issue.
    Mr. Kucinich. OK, let us go to Mr. Taylor. She deferred to 
you.
    Ms. Pegg. Oh, sorry.
    Mr. Kucinich. Did you get the question?
    Mr. Taylor. We are partners here, Mr. Chairman.
    Mr. Kucinich. I see that partnership. Now I want to find 
out how good of a partner you are. Can you answer the question?
    Mr. Taylor. Those ``best consumed by'' dates are really a 
company measure. Those aren't an FDA requirement. They address 
product quality in principle.
    Mr. Kucinich. OK, they are company measures. But isn't it 
true that the ``best consumed by'' date that is stamped right 
now is about 15 to 17 days after the produce leaves the 
processing plant? Is that right or not?
    Mr. Taylor. I don't personally have those facts at my 
disposal. I don't have any reason to----
    Mr. Kucinich. You need to have them. You are the guy. You 
got to have them. It is 15 to 17 days after the produce leaves 
the processing plant. But a few years ago, Mr. Jordan, the 
``best consumed by'' date for fresh produce was more like 5 to 
10 days.
    I would ask you, Mr. Taylor, to take note of that. Wouldn't 
it show you that you are closing a window here a little bit on 
issues of safety? You are opening up the possibilities of 
contamination, especially if these bagged leafy greens become 
hothouses of contamination if there is not consistent 
refrigeration?
    Mr. Taylor. Again, science-based preventative controls are 
all about understanding issues just like that. What is the 
likelihood of growth? What are the conditions that would reduce 
growth? What is an acceptable holding period for products? So 
in doing our preventative control regulations, that is the kind 
of issue that we will need to address.
    Mr. Kucinich. I have one final question and then we are 
going to go over to my colleague, Mr. Jordan. Ms. Pegg, CALGMA 
is silent on the selection of ``best consumed by'' dates. It 
doesn't require processors to reverse the trend of longer and 
longer ``best consumed by'' dates. Isn't that right?
    Ms. Pegg. I really don't know. I don't know what the----
    Mr. Kucinich. The correct answer in this case was yes.
    Ms. Pegg. Oh, OK.
    Mr. Kucinich. We are going to go to Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman. Let me thank our 
witnesses again for being here.
    Let me just pick up where the chairman was. Mr. Taylor, you 
said you didn't know the 15 to 17 days now or that it was a few 
years ago 5 to 10 days. Is it that you personally don't know or 
is that something that the USDA does not track and does not 
have any knowledge of?
    Mr. Taylor. Well, I am with the Food and Drug 
Administration.
    Mr. Jordan. The FDA, excuse me.
    Mr. Taylor. I don't personally know. I am confident that 
our technical experts would have that information. We can 
certainly share what knowledge we have with you for sure.
    Mr. Jordan. Ms. Pegg, would you say that the chairman's 
statement was accurate, that what has happened over the last 
several years is that date has gone from 5 to 10 to 15 to 17?
    Ms. Pegg. I remember a lot of discussion about this in 2006 
when the outbreak occurred but I don't know what the guidance 
is or where the trends have gone. I don't have any information 
on that right now.
    Mr. Jordan. We are going to have votes here in a few 
minutes. One of the bills we are going to be voting on is Mr. 
Dingell's legislation, at least it looks like that. Give me 
your thoughts on that piece of legislation. I know many in the 
agriculture community are concerned about that.
    Ms. Pegg, I think you said in your introduction at least to 
the chairman that you have a background with the California 
Farm Bureau. So let us start with you. What are your thoughts 
on that bill that looks like it is going to be on the floor 
here in just a few minutes?
    Ms. Pegg. We do support the bill. We look at what the 
working group produces as they review current statutes and 
regulatory authorities. We are looking at how we can move into 
the 21st century. I think what many of these measures----
    Mr. Jordan. Let me ask you specifically about some of the 
concerns we have heard from folks in agriculture.
    Ms. Pegg. I got a long email last night.
    Mr. Jordan. In particular, your former employer, the Farm 
Bureau, do you think they are way off base? Or, recognizing 
where you worked before, do you think they have some valid 
concerns?
    Ms. Pegg. I think in working with FDA and USDA we have a 
good partnership where we can both educate one another about 
what happens in the field and can assist in giving guidance on 
food safety practices. So I think it is a good partnership. 
That is why I personally do not necessarily share the concerns 
of my former employers.
    Mr. Jordan. Mr. Taylor, would you like to comment on that 
bill?
    Mr. Taylor. I think the core strength of this bill is that 
it would have Congress mandate the shift to a prevention 
strategy and empower FDA to set and enforce standards for 
preventative controls that will make food safer throughout the 
system. For produce, it would of course direct FDA to issue 
regulations to establish enforceable preventative controls. 
Importantly, it would direct FDA to take into account the 
diversity of the grower community and to take into account 
environmental impacts. These are all factors that have to be 
considered in order to get it right in terms of having an 
abundant, safe supply of fresh produce, which is an important 
goal that we all share.
    With respect to the concerns of the agricultural community, 
we have looked at the bill really hard. I think the bill has 
evolved a lot. It now very much focuses FDA's authorities with 
respect to on farm activity to those areas such as fresh 
produce where there is going to be a science-based or risk-
based justification for establishing standards. So I think this 
is a fairly focused bill in terms of its impact on farming.
    Mr. Jordan. Let me ask you a practical question. Think of 
the family out there who this time of year sets up the sweet 
corn stand to make a few extra dollars for their family. Tell 
me the impact of the legislation on the floor today or of what 
we are talking about here in this hearing. Tell me how they 
might be impacted.
    Mr. Taylor. In developing regulations like this for an 
industry that has that degree of diversity----
    Mr. Jordan. In my background, I remember dealing with this 
back at the State House. It was an uproar when there were some 
changes in the State of Ohio on how we were going to address 
truck farms or whatever the official title is they are given in 
the Ohio revised code. We heard from mom and pop produce 
businesses all over the State.
    Mr. Taylor. Activities like that, it is very hard to 
envision how a Federal regulation could establish a meaningful 
preventative control regime for an operation like that. So 
again, taking the command of the bill seriously, we would look 
at where the appropriate exemptions are and how do you put the 
boundaries around these requirements so that we achieve the 
food safety objective but also do it in a feasible, realistic 
way. That is the command we hope we get from Congress. We plan 
to do that.
    Mr. Jordan. Ms. Pegg.
    Ms. Pegg. I think he does bring up a lot. You have to take 
into consideration what happens at different scales. I think we 
will be working a lot with FDA on the implementation of it and 
providing our experience and our guidance there in that area.
    Mr. Taylor. Absolutely.
    Mr. Jordan. Mr. Chairman, I have no further questions. 
Thank you.
    Mr. Kucinich. We will go to a second round of questions. 
This should be a little bit shorter. Then we will go to the 
next panel.
    Mr. Taylor, if you stretch out that ``best consumed by'' 
date on ready to eat produce, it is a benefit for the 
processor. It obviously facilitates long distance 
transportation. Instead of 5 to 10 days, 15 to 17 days for 
``best used by.'' But isn't a shorter ``best consumed by'' 
period in the interest of protecting the public's health, Mr. 
Taylor?
    Mr. Taylor. The question is what are the holding conditions 
for that product and what is the nature of the product. I think 
you have to have a scientific answer to that question. There is 
no question that if you have pathogen growth potential and you 
are not using cold chain sorts of safe handling practices then 
the longer you hold the product, the greater the risk. So I 
think that we need a science-based answer to what is right 
there.
    Mr. Kucinich. Let us look at a science-based case. In the 
case of the 2006 E. coli 0157 outbreak that affected at least 
204 people, has the FDA correlated the location and date of the 
consumption of the tainted spinach and the date of illness with 
the date of harvesting? Harvested, ``best used by,'' 204 people 
with E. coli, have you done the correlations?
    Mr. Taylor. I don't know the answer to that. I started 4 
weeks ago. I can find out what investigation was done and we 
can brief you all and give you an answer later. It is a fair 
question.
    Mr. Kucinich. OK. Since you don't know the answer and you 
started 4 weeks ago--it is lovely to have you here--will the 
FDA submit in writing to this committee for inclusion in the 
record a spreadsheet with that information for each of the 
known victims of E. coli 0157 poisoning? Namely, we want the 
location and date of consumption of the tainted products, the 
date of illness, and the original date of processing. Can you 
do that?
    Mr. Taylor. We will provide you the information we have.
    Mr. Kucinich. If you could do that, we would really 
appreciate that. As a matter of fact, while we are at it, could 
you do that for all produce related outbreaks since 1999? You 
know which ones they are. We have talked about a few of them.
    Just create a spreadsheet. It shouldn't take too long to do 
since you already have the information. Put it in a usable form 
for this committee. It can help us in our deliberations about 
this issue of the transportation time and the ``best used by'' 
date, which so many consumers use as guidelines as to whether 
or not to consume something.
    I have one final question for each of the witnesses. Mr. 
Taylor, given CALGMA's purpose to protect public health by 
reducing microbial contamination of leafy greens in the 
``field-to-fork distribution supply chain,'' wouldn't it be 
more consistent with the purpose of CALGMA to include science-
based restrictions on the packaging, distribution, and 
marketing practices of ready to eat produce rather than 
CALGMA's current near silence or lack of specific requirements 
on those issues?
    Mr. Taylor. Mr. Chairman, I can't speak to the permissible 
scope of marketing agreements at USDA. But the answer to 
whether we need standards at each of those stages along the way 
that are enforceable and set by the Food and Drug 
Administration is clearly yes.
    Mr. Kucinich. Science-based?
    Mr. Taylor. Yes, sir.
    Mr. Kucinich. Ms. Pegg.
    Ms. Pegg. Just to differentiate, too, the California 
Marketing Agreement is based on the California Marketing Act. 
We are looking at a national program. I think that through this 
process as well as the public process we can ensure that a 
final program does include all those components.
    Mr. Kucinich. Before we conclude this, I would like to go 
back to Mr. Taylor. I want to read you a few opinions about the 
effect of the packaging used to market ready to eat produce.
    ``Because of the higher relative humidity of ready to eat 
packages, the risk of pathogenic growth is higher. Each degree 
over 40 degrees will increase the rate of pathogenic growth.'' 
This is from Larry Beuchat, Ph.D., at the Center for Food 
Safety of the University of Georgia.
    ``The problem comes when leafy greens are coming home in 
ready to eat bags. If they are left anywhere when temperatures 
are above 50 degrees Fahrenheit, it is widely known they can 
become breeding grounds for bacteria.'' That is from Mr. R. 
Atwill, Ph.D., of the Western Institute for Food Safety and 
Security.
    ``It is a perfect environment for all kinds of things to 
grow.'' That is from Elisa Odabashian, the West Coast director 
of Consumer Union, the publisher of Consumer Reports.
    Mr. Taylor, isn't true that all confirmed incidents of E. 
coli 0157 outbreaks since 1999 have been caused by pre-cut 
packaged greens?
    Mr. Taylor. As far as I know. I am only qualifying that 
because I am under oath and just don't want to misstate it.
    Mr. Kucinich. The Chair recognizes Mr. Jordan. Do you want 
to take 5 minutes?
    Mr. Jordan. Thank you. I will be brief. I just have a quick 
question on the bill that is going to be on the floor here in a 
few minutes.
    According to what we have looked at in the bill, this gives 
the FDA pretty broad authority to regulate how crops are 
raised. In effect--I will be interested, I know we have a 
farmer on the next panel--dictating how farmers produce their 
crop. Is that your understanding of how the legislation is 
going to work?
    Mr. Taylor. There is no sort of broad authority for FDA to 
tell farmers how to grow their crops. There is a very specific 
authority that if we, based on science, can identify a 
commodity that poses risks that can be addressed through 
preventative control measures, such as the industry itself is 
implementing, then we are empowered in that specific case to 
establish enforceable standards. But it is not a broad 
preventative control mandate.
    Mr. Jordan. It seems to me, as the chairman has gone to 
great lengths to point out and I think appropriately so, that 
the problem doesn't seem to be with the farmer producing the 
crop. It seems to be elsewhere in the supply chain, elsewhere 
in the processing or transportation or what have you.
    That is my concern. The farmer knows how to produce his 
crop. Let's not over-regulate and overburden this guy who is 
producing the food. Let's certainly not go out there and make 
it difficult for the mom and pop who are setting up the wagon 
and selling sweet corn to the neighbors and to the 
neighborhood. But we just know how government works.
    Look, we were told last year that we are just going to have 
one small little bailout. We promise it will just be one little 
bailout and this thing won't grow. We don't want to get into 
the private sector. Well, we have seen what has happened in the 
last year just in the financial industry, let alone the 
automotive industry. So these always start out with great 
intentions, but we know the pattern of government and what 
typically happens. That is my concern. Frankly, it is in a 
large degree the chairman's concern. Certainly, lots of folks 
in agriculture, it is their concern because they just know the 
nature of government.
    It is tough enough many times for folks in agriculture to 
deal with the State Department of Agriculture and other 
regulatory agencies at the State level, let alone now Big 
Brother in Washington telling them how to run their farm or how 
to run their business. That is my big concern.
    We will continue to watch this whole process relative to 
the bill and the issue we are addressing here in the committee.
    With that, I would yield back, Mr. Chairman.
    Mr. Kucinich. Thank you, Mr. Jordan. We are going to go to 
one more round here before we get to the next panel.
    Ms. Pegg, here is another example of something farmers have 
a problem with. CALGMA identifies a number of sources of 
potential pathogens that must be avoided for certification. 
These include birds, feral pigs, and other wildlife as well as 
cattle. To comply, farmers are paying for measures such as the 
building of large fences to thwart wildlife. But the science is 
hardly conclusive, Ms. Pegg, that the wildlife was a likely 
source of contamination in the 2006 spinach contamination. 
Isn't that so?
    Ms. Pegg. Well, in the 2006 outbreak, actually there was, 
and maybe FDA can speak to this, but there was concern about 
wildlife in that outbreak that did occur. Wild pigs were the 
wildlife in question.
    Mr. Kucinich. You are saying there was concern. Is that 
evidence-based or is it conjectural? What is the basis of that 
concern? Was it conclusive or was it conjectural? Was it 
science-based? What was it?
    Ms. Pegg. Maybe you can speak to the investigation but if 
you have been to the Salinas Valley and that region----
    Mr. Kucinich. I have been to Salinas Valley.
    Ms. Pegg. OK. In that area there is some known wildlife 
activity. Now, the California Leafy Greens Handlers Marketing 
Agreement does look at other potential risks. They also do rank 
wildlife as high risk or low risk.
    Mr. Kucinich. In order to facilitate this hearing, I would 
like you to supply to this committee the information about the 
basis of your statement that wildlife was somehow connected 
with this. I would like to see some scientific backup of that, 
OK?
    Ms. Pegg. OK, I will get that. It is for the 2006 outbreak?
    Mr. Kucinich. Right, exactly.
    Ms. Pegg, a leafy greens field's proximity to cattle is a 
high risk circumstance for E. coli contamination. Does CALGMA 
make distinctions between high risk circumstances and low risk 
circumstances such as the presence of frogs or other wildlife? 
Does CALGMA prioritize, in other words, high risk circumstances 
while deprioritizing low risk circumstances?
    Ms. Pegg. I believe it does.
    Mr. Kucinich. Isn't it true that all farms have to 
eliminate riparian areas and hedge rows if they are within a 
CALGMA specified distance from a crop edge?
    Ms. Pegg. I am not positive on the current best practices 
on that.
    Mr. Kucinich. Ms. Pegg, I want you to look at this slide on 
the screen. Can staff put the slide up? OK. The aerial 
photograph above was taken before CALGMA. You can plainly see a 
strip of green between several fields where trees and hedges 
are and where birds and wildlife can take shelter. Now look at 
the aerial photograph below, taken after CALGMA. Here you can 
plainly see that the strip of trees and hedges has been 
eliminated. There is no wildlife there.
    Isn't it true, Ms. Pegg, that CALGMA would have required 
the cutting down of those trees?
    Ms. Pegg. I don't know if I can speak to that because I 
don't know if they are CALGMA participants. This has been a 
huge issue. We have discussed this since 2006, how do you deal 
with whether there are there real risks or not. I was talking 
to California Fish and Game this week about it. It is a big 
issue.
    Mr. Kucinich. You are the Nation's advocate for farmers. 
Does it make sense for the USDA to advocate for a processor-
based framework that requires all farmers to spend heavily to 
prevent low-risk events such as contamination by wildlife while 
the higher risk but rarer circumstance of proximity to cattle 
and the known risks associated with processing and packaging 
leafy greens are more significant contributors to the problems 
CALGMA intends to address?
    Ms. Pegg. Any program needs to address the risks and look 
at high risks versus low risks. I think what we are looking at 
in terms of any program is all chains in the process and how to 
reduce the risks.
    Mr. Kucinich. So who should pay for compliance with CALGMA, 
the farmer or the processing industry? Should the cost be 
shared?
    Ms. Pegg. Under the marketing agreement, I believe they 
propose a per carton assessment that the handler pays to cover 
the costs of the marketing agreement.
    Mr. Kucinich. So who currently pays for the measures 
adopted to comply with CALGMA?
    Ms. Pegg. I think for the California Leafy Greens Handlers 
Marketing Agreement, that is a per carton assessment that pays 
for it.
    Mr. Kucinich. Farmers.
    Ms. Pegg. Their handler signatories. So handlers pay it.
    Mr. Kucinich. Farmers.
    OK, I think we have completed questioning of the first 
panel. We will be in touch with you regarding the followup on 
questions that we have asked. We appreciate your cooperation 
with the committee and your presence here today.
    Those buzzers that you heard are the reason why I am going 
to have to recess this meeting until after votes. How many 
votes do we have? There are three votes so I would like to take 
a half hour break. Then we are going to come back for the 
second panel. We will take testimony from those who are here to 
talk about their experiences.
    I want to thank the representatives of the FDA and the USDA 
for being here. We look forward to working with you on these 
issues so that we can help consumers across America have more 
confidence in the safety of our leafy greens packaged foods. 
Thank you very much.
    The committee stands in recess for a half hour. We are 
going to vote.
    [Recess.]
    Mr. Kucinich. Before we begin, I just want to acknowledge 
the work of our staff on both sides who have helped with this 
hearing. We appreciate your work. I want to make it known that 
one of our staffers, Charity Tillemann-Dick, who has done a lot 
of work on this could not be here today because of an illness. 
We look forward to her return. But she did a lot of great 
research and I just want to acknowledge that for the record, 
actually. Thank you.
    We are going to go to our second panel of witnesses. I 
would like to introduce them. We will start with Ms. Kelly 
Cobb. Welcome, Ms. Cobb. Kelly Cobb is a survivor of E. coli 
poisoning and has come here today to share her story with us. 
Her husband, Matt Cobb, serves in the U.S. Marines. They are 
parents of two young children.
    Mr. Scott Horsfall is the chief executive officer of the 
California Leafy Greens Marketing Board. Mr. Horsfall has 
served as chairman of the U.S. Agricultural Export Development 
Council, was a member of the Agricultural Trade Advisory 
Committee for Fruits and Vegetables, and is past chairman of 
the Produce Marketing Association's International Trade 
Conference. Welcome, Mr. Horsfall.
    Mr. Dale Coke, welcome. Mr. Coke is a farmer and a member 
of the Community Alliance with Family Farmers. Mr. Coke is also 
the founder and President of Coke Farm, a produce cooling, 
storage, and shipping company located in San Juan Bautista, CA 
that represents local California organic growers in selling 
throughout the United States and Canada. He is also a partner 
in Jardines, a diversified organic farming operation growing on 
approximately 500 acres in Monterrey and San Benito, CA 
counties. The sixth generation of his family born in California 
to work in agriculture, he pioneered spring mix lettuce and was 
instrumental in developing its market.
    Ms. Caroline Smith DeWaal, welcome. Ms. DeWaal is the 
director of Food Science at the Center for Science in the 
Public Interest where she is a leading consumer analyst on 
reform of laws and regulations governing food safety. Since 
1999 she has maintained and annually published a list of food-
borne illness outbreaks organized by food source that now 
contains over 15 years of outbreak reports. She has presented 
at numerous conferences. She is a co-author of the book, Is Our 
Food Safe: A Consumer's Guide to Protecting Your Health and the 
Environment and has authored numerous papers on food safety.
    I want to thank the witnesses for their presence here 
today. It is the policy of our Committee on Oversight and 
Government Reform to swear in all witnesses before they 
testify. I would ask that you rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you very much. Let the record reflect 
that each of the witnesses has answered in the affirmative.
    As with panel one, I ask that each witness give an oral 
summary of his or her testimony. I would like to see you keep 
that summary a maximum of 5 minutes in duration. Any testimony 
that you want to add beyond that and your entire statement will 
be in the record. Anything you want to send to this committee 
within a few days will be included the record as well. Your 
complete written statement will be in the record.
    Ms. Cobb, welcome. I would like you to be our first 
witness. Would you please begin?

STATEMENTS OF KELLY COBB, SURVIVOR OF E. COLI POISONING; SCOTT 
  HORSFALL, CHIEF EXECUTIVE OFFICER, CALIFORNIA LEAFY GREENS 
   MARKETING BOARD; DALE COKE, FARMER AND MEMBER, COMMUNITY 
   ALLIANCE WITH FAMILY FARMERS; AND CAROLINE SMITH DEWAAL, 
  DIRECTOR OF FOOD SCIENCE, CENTER FOR SCIENCE IN THE PUBLIC 
                            INTEREST

                    STATEMENT OF KELLY COBB

    Ms. Cobb. In May 2008, I was busy as a stay at home mom 
raising my two children, Liberty, who is three, and Matthew, 
who was one at the time. We were in Washington visiting family 
from California. We were there without my husband because he 
was serving as a Marine in Iraq for the second time.
    On May 10th, my mom invited me to go to a banquet dinner 
with her and some of her friends. Little did I know, by 
accepting her invitation I would be changing my life forever. 
That night I ate a salad that was contaminated with E. coli. My 
mom, my children, and her friends who were there with us 
happened to sit at the same table. I just happened to pick the 
seat that was contaminated. My children were there with us. My 
son was on my lap but luckily he didn't eat greens at the time.
    On May 15th, I was getting ready for our drive back to 
California. I went to bed that night with a stomach ache and 
woke up on May 16th with diarrhea and most painful stomach 
cramps that occurred every 10 minutes. My stool turned to blood 
at about 5.
    I then proceeded to go to the ER where they just said that 
I had a bacterial infection. I went home and was unable to hold 
down water or the medicine that they gave me so I returned to 
the hospital. Two days later I was told that I had E. coli and 
that was the cause of the illness, not what they had thought. I 
was discharged from the hospital only to return a couple of 
days later because I had developed a condition of HUS.
    I was told at that time that my kidneys were only 
functioning at 50 percent. I was then started on plasmapheresis 
where they cycled out my blood and put in the new stuff. Over 
the time that I was in the hospital, I had over 50 blood draws, 
two ultrasounds, a CAT scan, a colonoscopy, seven IVs, a 
central line in my neck, four units of whole blood, and 80 
units of plasma.
    Both my husband and my father were in Iraq at the time. I 
had to send a Red Cross message to my husband to let him know 
what was going on. He was unable to come home. I had the kids. 
I was the only caretaker with him being gone so my mom took 
over that responsibility and set up child care for them while 
she was at work. They came to see me at the hospital every day 
but they did not understand why I wasn't able to go home with 
them or why they couldn't stay with me. They were so young that 
they didn't understand what was going on.
    There were several times that I didn't think I was going to 
make it because of how sick I was. I remember on 1 day, I think 
it was the 28th, I had an allergic reaction to some pain 
medication that I was given and I got intense chest pain. I 
remember blacking out and not really knowing what was going on. 
I honestly thought I was going to die right there on the 
hospital bed while my husband and father were in Iraq and the 
kids were at home. I thought I wouldn't be there with them 
anymore.
    With that, I was unable to really focus on what the nurses 
were telling me. They gave me another medication to help with 
the reaction.
    From that incident, from the E. coli I no longer eat any 
produce that I can't see being washed myself. I have gone to 
restaurants and asked them how they prepare their salads. I 
clean everything from a bag of lettuce to a watermelon because 
when you cut through it, it is going to hit your fruit.
    The time I have with my family means so much more to me now 
because I know that at any time it can be taken away from me. I 
am honestly surprised with how sick I got that I am here today.
    If anything, I would want the parties at fault in my 
particular case to know that they took me away from my kids for 
2 weeks. That is time that they will never get back. My son was 
one. He developed every day that I was gone. He came to the 
hospital saying new words every day and doing new things.
    I can't describe to you the pain that I was in because I 
don't have a comparison that I could give to you. I would 
rather break bones than go through that. I would rather have a 
broken arm right now than go through the pain that I felt from 
the E. coli. I don't have a comparison to actually give to you 
on what I felt.
    It could be their family. It could just as easily have been 
one of my kids. Had it been, it would have been devastating to 
them what I went through.
    [The prepared statement of Ms. Cobb follows:]

    [GRAPHIC] [TIFF OMITTED] T4914.030
    
    [GRAPHIC] [TIFF OMITTED] T4914.031
    
    [GRAPHIC] [TIFF OMITTED] T4914.032
    
    [GRAPHIC] [TIFF OMITTED] T4914.033
    
    Mr. Kucinich. Thank you very much for coming here to 
testify. We are certainly going to be having some questions of 
you when we go to that phase of this hearing.
    At this point, I would like to ask Mr. Horsfall to proceed 
for 5 minutes. Thank you very much.
    Before you proceed, I want to welcome some of our visitors 
here from China, Macau. Thank you for being here.
    Please proceed.

                  STATEMENT OF SCOTT HORSFALL

    Mr. Horsfall. Thank you. Good afternoon, Chairman Kucinich 
and Ranking Member Jordan. I am happy to be here. I am always 
happy to talk about our program.
    I will get to my statement but I would express to Ms. Cobb 
that what she went through does not fall on deaf ears in our 
industry. Shortly after I started this job, USA Today ran a 
recap. It was a year after the original outbreak. They 
presented the stories of the four or five people who had died 
because they ate spinach. I know, because I work with this 
industry, that they take that to heart. They are trying to do 
everything they can do so that there aren't more victims and so 
that we can reduce that risk as much as possible.
    The Leafy Greens Marketing Agreement was established in 
2007. It is a mechanism, quite simply, for verifying through 
mandatory government audits that farmers of leafy greens follow 
a rigorous set of food safety standards. We are an 
instrumentality of the State of California and we operate with 
oversight from the California Department of Food and 
Agriculture.
    Although the leafy greens industry had always prioritized 
food safety, in the aftermath of that outbreak in 2006, 
farmers, shippers, and processors recognized that more effort 
was needed to protect public health. The question was how to do 
it. A lot of different approaches were looked at, including 
regulation at both the State and national levels, marketing 
orders, and a marketing agreement. The decision was ultimately 
made to go with the tool that was most readily available, which 
was a marketing agreement.
    It is a voluntary organization but it does have the force 
of government behind it. Our members, when they do join, it is 
mandatory that they follow the rules of the program. It also 
has the flexibility to change and amend the program as we get 
new research.
    You have talked about research a lot already this 
afternoon. We are keenly interested in research that is being 
done so that we can make the program better. That flexibility 
is actually one of the key benefits of the LGMA structure.
    Our program is focused on preventing the introduction of 
pathogens into leafy greens fields and farms. We applaud the 
Obama administration and the President's Food Safety Working 
Group for their focus on prevention in their approach to 
improving food safety. On July 7th in their press conference we 
were happy to hear Vice President Biden and Health and Human 
Services Secretary Sebelius talk about prevention as job No. 1.
    I was asked to talk about where our metrics came from. As 
the LGMA was being developed, there was a parallel effort to 
create a set of food safety practices and standards, sometimes 
referred to as good agriculture practices or metrics. They were 
developed by university industry scientists as well as other 
food safety experts, farmers, and shippers. Those standards 
were reviewed by FDA, the USDA, and other State and Federal 
health agencies. They cover the major risk areas that have been 
identified by FDA and other food safety experts.
    Practices include careful attention to site selection for 
growing fields based on farm history and proximity to animal 
operations, appropriate standards for irrigation water and 
other sources of water, prohibition of raw manure and the use 
of only certified safe fertilizers, and of course good employee 
hygiene in fields and harvesting.
    Our members are subject to mandatory audits by the 
California Department of Food and Agriculture to ensure that 
they are in compliance with the program. Those auditors are 
USDA trained and the process that we use is a USDA certified 
audit process. Our members face penalties if they are not in 
compliance up to and including decertification from the 
program, which can lead to serious and significant 
repercussions for the company. From July 23, 2007 when we first 
began our auditing, we have done over 1,000 government audits 
of our members. Those continue today even as we speak.
    We all know that maintaining food safety vigilance is 
crucial to the future of the produce industry. While there is 
still very much to do--and we are not done--I believe that the 
leafy greens industry is doing more to provide a safe, 
wholesome, and delicious product now than they ever have 
before.
    Thank you very much.
    [The prepared statement of Mr. Horsfall follows:]

    [GRAPHIC] [TIFF OMITTED] T4914.034
    
    [GRAPHIC] [TIFF OMITTED] T4914.035
    
    [GRAPHIC] [TIFF OMITTED] T4914.036
    
    [GRAPHIC] [TIFF OMITTED] T4914.037
    
    Mr. Kucinich. Thank you very much, Mr. Horsfall. Mr. Coke, 
you may proceed for 5 minutes. Thank you.

                     STATEMENT OF DALE COKE

    Mr. Coke. Good afternoon, Chairman Kucinich and Ranking 
Member Jordan. Thank you for inviting me here today.
    I have been asked to address the impacts of the California 
Leafy Greens metrics on farming practices. For growers in 
California, it is estimated that the economic impacts are on 
the order of about $18,000 per year on average per farm. That 
will be higher for larger farms and possibly less for smaller 
farms.
    Growers have to, of course, do testing of water, 
fertilizer, soil amendments, and anything else that goes onto 
the crop. They have to document all of this. They have to be 
aware of animal incursions, pay attention to vegetation, and 
then also provide some kind of traceability.
    Traceability is not such an issue for a grower like 
ourselves. Organic growers have had to be able to trace a 
product for years. There have also been prohibitions against 
manure use for organic production for years. For compost, there 
is no sewage sludge or other kinds of toxic chemicals used.
    But organic growers are facing significant issues with the 
push by regulators to ban wildlife and non-crop vegetation like 
wind breaks and habitat, which are things that are supposed to 
be encouraged by organic laws that pertain to maintaining your 
certification.
    Environmental impacts often vary depending on the inspector 
and his interpretation of the metrics. There are certain 
companies that use their own metrics, which are called super-
metrics in the industry. Wildlife, non-crop vegetation, and 
water bodies are normally viewed as food safety risks. A lot of 
environmentally positive projects have been abandoned by 
growers who have been threatened with the loss of the ability 
to sell their crops.
    Wind breaks, vegetative filter strips, tail water reuse 
reservoirs, grass roadways, and vegetative ditches have been 
removed to comply with the inspectors when they come out to 
check on the crop. Many fields have deer and pig fencing. Some 
also have frog and rodent fencing even though those haven't 
been found to be vectors of pathogens. Some of the fields for 
leafy greens use poison traps for rodents. Secondary poisoning 
of raptors and owls can occur with this.
    A lot of these practices are more based on the processor's 
having problems pulling them out of the harvested crop because 
of the nature of the harvest of the crop than it has to do with 
being a food safety issue.
    Practically, this has been a big step backward from 
environmental protection. It was just starting to move forward 
on farms.
    There is a lot more money and time that farmers have to 
spend trying to comply with these metrics and document this. 
The majority of the food disease-related outbreaks that are 
associated with leafy greens come from pre-cut processed 
products. There is some kind of failure during that process to 
make it ready to eat or to make it clean enough that you don't 
have the pathogens.
    Salad processors tend to point to the fields as being the 
issue. It is very difficult for farmers to grow sterile crop in 
a open field. We have always had employee hygiene. We are 
concerned about our compost and we don't use manure. We test 
our water and our fertilizer, as many farmers do just to make 
sure that we are not part of the problem.
    Leafy greens farmers are now in the unenviable position of 
having to pay for and comply with a roster of unproven safety 
metrics in attempting to grow pathogen-free crops and being 
held potentially liable for it.
    The California Leafy Greens Marketing Agreement has made 
steps in the right direction, I think, for the processed 
product that it should be representing. I don't know that 
marketing agreements are an appropriate way to provide food 
safety, whether they be State or national. In my mind they are 
something that focuses on marketing products rather than on the 
actual conditions of growing products.
    This being said, if this were to be moved in that direction 
and if the focus was just on processed food, you would reduce a 
lot of impact. There are a lot of farmers that don't grow leafy 
greens that go into bags. If the focus was just on the 
processed arena, you could exempt them.
    I was there when they started having the meetings to decide 
about leafy greens in California. They included specific 
vegetables. I asked why they were just including a few 
vegetables. There was no answer because they didn't 
differentiate whether it was a whole head or a bunched product. 
It was just they are going to include these vegetables.
    The only reason I can come up with is that it is something 
to enhance their competitive edge. It gives them a marketing 
advantage if you need to adhere to these metrics. You kind of 
raise the bar and a lot of farmers might not be able to make 
that.
    [The prepared statement of Mr. Coke follows:]

    [GRAPHIC] [TIFF OMITTED] T4914.038
    
    [GRAPHIC] [TIFF OMITTED] T4914.039
    
    [GRAPHIC] [TIFF OMITTED] T4914.040
    
    [GRAPHIC] [TIFF OMITTED] T4914.041
    
    [GRAPHIC] [TIFF OMITTED] T4914.042
    
    Mr. Kucinich. I want to thank the gentleman for his 
testimony. Your entire statement will be included in the 
record. As someone who has been so involved in the development 
of this industry, we appreciate your presence here.
    The Chair recognizes Ms. Smith DeWaal for 5 minutes. After 
your testimony, we are going to go to a round of questions of 
the panel. You may proceed.

               STATEMENT OF CAROLINE SMITH DEWAAL

    Ms. DeWaal. Thank you very much, Chairman Kucinich and also 
Representative Jordan. My name is Caroline Smith DeWaal. I 
direct the Food Safety Project for the Center for Science in 
the Public Interest.
    CSPI has concerns about the increasing use of marketing 
orders as a vehicle for regulating safety. Fifteen different 
agencies administer 30 different laws that regulate food safety 
in the United States today. Marketing orders really represent a 
further fractioning of this already widely fractured system.
    Food-borne illness outbreaks linked to fresh produce are 
among the major public health problems when it comes to food 
safety. Leafy greens and salads are among the top food 
categories along with beef, poultry, and seafood that cause 
both outbreaks and illnesses. In addition, the average size of 
outbreaks linked to produce tends to be larger so they tend to 
affect more people.
    The importance of robust and reliable food safety practices 
on the farm cannot be understated. Leafy greens, once 
contaminated, can support, grow, and spread pathogens until 
they are consumed. Chlorination and other post-harvest controls 
can help reduce crops' contamination between different lots of 
salad, for example, but they don't make contaminated product, 
product that comes in from the farm contaminated, truly safe to 
eat. In fact, scientists have shown how bacteria can inhabit 
the washing systems used for bagged lettuce and transfer 
bacteria from a contaminated lot really onto a full day's 
production of salads.
    While FDA has jurisdiction over on farm food safety, it 
really has not acted as an effective regulator. They have been 
using for at least the past 10 to 15 years the concept of 
guidance, unenforceable guidance, to the industry instead of 
regulation. But the absence of enforceable rules leaves a 
significant hole in the fabric of food safety, allowing and 
even encouraging the industry to weave standards of its own 
design.
    The Agricultural Marketing Service has served as a friendly 
regulator of choice when food safety problems arise. At AMS, 
the food industry can draft their own rules, called marketing 
orders or agreements, to best suit their needs. But AMS is not 
equipped to monitor the safety of food. The primary focus of 
AMS is with the promotion of food products.
    The mechanisms that it uses are limited in terms of their 
geographic scope and often they are completely voluntary. These 
are voluntary systems. Farmers have to agree and the handlers 
have to agree to comply. They are limited to U.S. companies and 
sometimes they are limited to companies just in the State of 
California. This is particularly troubling when you consider 
that 13 percent of our diet is from imported produce. So a huge 
amount of produce is never going to be subject to these 
marketing orders.
    AMS oversees marketing orders for 22 different commodities 
including things like almonds and shell eggs. These programs 
can really instill a false sense of security both for the 
industries involved and for the consumers because they really 
are quality programs. They are not based on safety. But given 
the absence of rulemaking at FDA, it is not really surprising 
that in the aftermath of the 2006 spinach outbreak the leafy 
greens industry turned to AMS to create these stronger rules.
    I just want to note that these standards really do create 
uncertainty. They give rise to the private standards which are 
actually the complaint of many of the growers today. The 
growers today are saying that these standards are too 
burdensome. But let me be clear: These aren't mandatory 
standards. They are not FDA standards. They don't apply to 
imports.
    It is critically important that we actually get a system in 
place that will protect the public. The Food Safety Enhancement 
Act, which is before the House of Representatives, addresses 
this issue head on. It requires FDA to consider both food 
safety and environmental impacts when promulgating regulations 
for food production. It requires the standards to take into 
account small scale and diversified farming, wildlife habitat, 
conservation practices, watershed protection, and organic 
production methods. This is all in the legislation that is 
before the House.
    This provides an appropriate focus on public safety. It 
gives the farmers and consumers both an opportunity to weigh in 
on these standards, which we don't have today with the AMS 
standards. It would protect the sustainable and organic farming 
communities that we all value. These are the type of standards 
that consumers cannot live without.
    Thank you.
    [The prepared statement of Ms. DeWaal follows:]

    [GRAPHIC] [TIFF OMITTED] T4914.043
    
    [GRAPHIC] [TIFF OMITTED] T4914.044
    
    [GRAPHIC] [TIFF OMITTED] T4914.045
    
    [GRAPHIC] [TIFF OMITTED] T4914.046
    
    [GRAPHIC] [TIFF OMITTED] T4914.047
    
    [GRAPHIC] [TIFF OMITTED] T4914.048
    
    [GRAPHIC] [TIFF OMITTED] T4914.049
    
    [GRAPHIC] [TIFF OMITTED] T4914.050
    
    [GRAPHIC] [TIFF OMITTED] T4914.051
    
    [GRAPHIC] [TIFF OMITTED] T4914.052
    
    Mr. Kucinich. Thank you very much.
    By the way, I just have an update. The bill that was voted 
on did not receive the required two-thirds so it will end up 
going back for some work. Some of the concerns that were 
expressed by Members who voted against it were about the effect 
of the bill on small farmers and organic farmers. So I think 
that the Center, which endorsed the bill, needs to take heed of 
the concerns that are expressed. If we do that, perhaps when 
the bill comes back out to the floor we can see it pass. Thank 
you.
    Well, that means we will each have 5 minutes for questions. 
That really does mean that we should move this along.
    I just want to thank Ms. Cobb. How are you feeling, by the 
way?
    Ms. Cobb. I am fine now.
    Mr. Kucinich. How many years ago was this?
    Ms. Cobb. It was May 2008.
    Mr. Kucinich. Have you felt any after-effects other than 
the fact that you are really not keen on eating certain 
products?
    Ms. Cobb. Other than at home. No. I am at a higher risk of 
cardiovascular disease later in life and urinary tract types of 
issues but as of right now I have had none of that since that 
same summer.
    Mr. Kucinich. We are glad you are here.
    Ms. Cobb. Thank you.
    Mr. Kucinich. I think there needs to be a public face of 
somebody who has dealt with this. You have dealt with it. It 
takes a lot of courage to come before a congressional committee 
to relate your experience. We appreciate that you are here.
    Ms. Cobb. Thank you. I appreciate it.
    Mr. Kucinich. The other thing I want to note is that when 
Mr. Horsfall began his statement, I was impressed that you said 
Ms. Cobb's testimony doesn't fall on deaf ears. What I saw was 
a real, unrehearsed response to hearing what you had to say. I 
just want you to know that I appreciate that. Sometimes people 
come in here with a story that can be very difficult and the 
individuals who may have some responsibility in that area 
generally seem to be impassive about it. You showed some 
concern. I think that speaks well.
    I would like you to address the concern about some of 
CALGMA's metrics and the arbitrariness of them. Your auditor 
must find that the adjacent land to a field of greens be free 
from compost operations within 400 feet of the crop edge while 
it only requires that the adjacent land be free from the 
grazing of domestic animals within 30 feet of the crop edge. 
What is the justification for allowing domestic animals, the 
animal waste products of which are a component of compost, to 
be closer to the crop edge than a compost operation?
    Mr. Horsfall. The LGMA program metrics are based entirely 
on risk assessments. I think that is in keeping with FDA 
guidance. The compost operations are considered to be a very 
high risk situation in terms of pathogens. We also have 
significant buffer zones if there is a confined animal feeding 
operation where you have a large number of animals of risk in a 
field.
    Mr. Kucinich. Remember, you have domestic animals closer to 
the crop edge than the compost operation.
    Mr. Horsfall. Because the risk assessment tells us that 
there is a lower risk involved if you have a couple of animals 
on a farm.
    Mr. Kucinich. But let us look at the 2006 spinach incident. 
Isn't it true that the field identified as the source of 
contaminated spinach was less than a couple hundred feet from 
where domestic animals graze and shade themselves?
    Mr. Horsfall. I don't know that for sure.
    Mr. Kucinich. Well, let us check it out and see. Maybe you 
could look at that. Maybe you could come to some kind of a 
conclusion if there is any contradiction there.
    Isn't true that CALGMA's auditors would not today find any 
problem with growing spinach intended for the ready to eat 
market growing a couple hundred feet from the land where cattle 
graze, exactly the conditions present in the 2006 spinach 
incident?
    Mr. Horsfall. It would depend on the number of cattle that 
were there. I don't have those numbers in front of me. But in 
that particular case, as I recall, the feces that were found 
that had the same fingerprint were over a mile away.
    Mr. Kucinich. Should CALGMA be tougher on the processors 
who make the bagged lettuce than it currently is?
    Mr. Horsfall. I think processors, if I could address that, 
processors are under the jurisdiction of FDA. They are already 
inspected.
    Mr. Kucinich. What about CALGMA? We are looking at a 
possible nationalization of this. Should CALGMA be tougher on 
these processors? You have heard testimony here. What do you 
think?
    Mr. Horsfall. I think the processors need to be regulated 
just as heavily as growers do. That regulation, I believe, is 
in place through FDA.
    Mr. Kucinich. I appreciate that.
    I just want to ask one more question here. Mr. Coke, you 
are the father of the spring mix. Spring mix helped pre-cut 
packaged leafy greens become a vegetable consumers like and eat 
in increasing portions. It has made a significant health 
contribution. But you are also a critic of the ready to eat 
leafy greens industry.
    In your opinion, is there a way for the American public to 
get the convenience and health benefits of pre-cut packaged 
vegetables without the harm to farmers you mentioned in your 
testimony?
    Mr. Coke. Just as a point of clarification, I developed the 
concept of spring mix but I never put it in bags and it was 
never ready to eat. It was a field run product. It was washed, 
cooled, dried, and packed into three pound boxes.
    I always had serious reservations about how that product 
was displayed. I didn't ever want to go into----
    Mr. Kucinich. What would be the long term results, Mr. 
Coke, in your opinion, on the environment if CALGMA is 
nationalized in its current form?
    Mr. Coke. In its current form, I think it will affect too 
many growers of lettuce and cabbage and kale and chard, the 
things that are traditionally harvested as whole heads or 
bunched items. They don't make a differentiation between them. 
Those things haven't had any outbreaks associated with them. 
They often have a kill step associated because people heat them 
up before they eat them. They steam them or boil them.
    Mr. Kucinich. Thank you.
    I have some followup questions to Ms. Smith DeWaal. We are 
going to put them in writing.
    I am going to go now to Mr. Jordan. Thank you.
    Mr. Jordan. Thank you, Mr. Chairman. I will be brief as 
well since we have a vote pending.
    Let me, too, thank Ms. Cobb for being here. How are the 
little ones doing? Are they doing fine?
    Ms. Cobb. Oh, yes. Matthew doesn't remember because he was 
too young. Liberty still remembers and will talk about when I 
got sick from a salad. She know what it was from. For a while 
she would tell people not to be afraid of a blood machine 
because she remembers coming in while I was having a 
transfusion done. But overall they are doing well.
    Mr. Jordan. Well, let me also thank your family for their 
service to our country. Thank you all for being with us now. 
Let me just get a couple basic facts. What is your home State, 
Ms. Cobb?
    Ms. Cobb. My home State is Washington.
    Mr. Jordan. Mr. Horsfall, the program is completely 
voluntary. Is that right? I think this came off your Web site 
for LGMA. There are 120 handlers for 99 percent of the volume 
of California leafy greens. They are all voluntary? That was 
120 who joined?
    Mr. Horsfall. Yes.
    Mr. Jordan. What is the assessment? How is that determined 
again?
    Mr. Horsfall. We assess our members based on the volume 
that they ship. It is a penny and a half per 24-count 
equivalent box.
    Mr. Jordan. I just want to be clear, are big producers part 
of it? In other words, are the farmers part of the organization 
or is it just the folks who take the farm product and then 
package it?
    Mr. Horsfall. Our members are handlers. They are the people 
who put products into commerce. The majority of them are 
growers as well.
    Mr. Jordan. They are both?
    Mr. Horsfall. Yes.
    Mr. Jordan. So some are both. Some actually produce the 
product and handle it?
    Mr. Horsfall. Absolutely.
    Mr. Jordan. From the field right to their operation or it 
could be around the same premises?
    Mr. Horsfall. Yes, and they sell to each other as well in 
the industry quite a bit.
    Mr. Jordan. Since you have come into existence, which was 
2006 or 2007--what year was it?
    Mr. Horsfall. It was 2007.
    Mr. Jordan. Have there been any outbreaks of E. coli or any 
problems?
    Mr. Horsfall. There have been outbreaks that have been 
reported. I don't believe that the health authorities have 
conclusively finished their investigations yet to say where the 
product got contaminated. But there was a small outbreak in 
Washington State that Ms. Cobb was affected by. Last year there 
was an outbreak in Michigan.
    Mr. Jordan. So can you definitively say that we have seen 
an improvement in that there have been less problems since your 
organization has been formed or is that anyone's guess?
    Mr. Horsfall. The answer is yes, fewer people have gotten 
sick tied to lettuce and leafy greens in the last 2 years than, 
say, in the 2 or 3 years before that. But I don't take that as 
a metric. I think if anybody is getting sick, then we still 
have to figure out how to make the program better. That is 
where the research comes in.
    Mr. Jordan. Mr. Coke, you are a farmer and a handler. Are 
you part of this organization, your farm and your operation?
    Mr. Coke. I am not. I have two different entities. One is a 
sales, shipping, and cooling company. The other is a farming 
company. The farming company contracts with a handler that is 
signatory to that. We grow some crops, cilantro, dill, and 
parsley in this case, for inclusion in the salad that they want 
to be grown under those metrics. So we do that part. Otherwise 
we have a diverse crop mix. There are only a few things that 
would be considered leafy greens.
    I have resisted. I think the principle of this agreement is 
wrong so I didn't want to. It has cost me the ability to sell 
into Canada because they won't accept product, even though we 
are organic and we test the soil and water. They won't accept 
product if you are not signatory to the Leafy Greens Marketing 
Agreement. I don't know. I would prefer not to go there, to 
have to. I was hoping that something would become a little more 
logical and you would focus on the process part.
    Mr. Jordan. This is a country boy from western Ohio who 
didn't grow up on a farm but we live out in the middle of my 
wife's family farm. You think about when the product is grown 
close to a composting site or whatever, but I can remember when 
they used to spread manure on the field. It seems to me that 
the problem has to be after the product is taken out of the 
field. That is just common sense. But maybe I am just a country 
boy.
    Mr. Coke. I think you are right. The product has issues. 
The slide that you showed about the bagged produce. It is a 
great concept to give people something that is ready to eat but 
it is a perfect incubator. How do you keep that? If you can't 
sterilize it, if you have any little pathogen and you break the 
cold chain, even the customer just taking it out to their car 
and then driving home, potentially it is a hazard. It is a 
difficult issue to get a product to market safely, I think.
    Mr. Jordan. We have to vote. Thank you all for coming. I am 
sorry we didn't get a chance.
    Mr. Kucinich. I want to thank Mr. Jordan. I want to thank 
the witnesses for being here.
    I am Dennis Kucinich, Chairman of the Domestic Policy 
Subcommittee. Mr. Jordan is the ranking member. Our hearing 
today has been Ready-to-Eat or Not?: Examining the Impact of 
Leafy Greens Marketing Agreements. We have had two panels. The 
testimony has been very important. We appreciate your 
participation.
    This committee stands adjourned. Thank you.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4914.053

[GRAPHIC] [TIFF OMITTED] T4914.054

[GRAPHIC] [TIFF OMITTED] T4914.055

[GRAPHIC] [TIFF OMITTED] T4914.056

[GRAPHIC] [TIFF OMITTED] T4914.057

[GRAPHIC] [TIFF OMITTED] T4914.058

[GRAPHIC] [TIFF OMITTED] T4914.059

[GRAPHIC] [TIFF OMITTED] T4914.060

[GRAPHIC] [TIFF OMITTED] T4914.061

[GRAPHIC] [TIFF OMITTED] T4914.062

[GRAPHIC] [TIFF OMITTED] T4914.063

[GRAPHIC] [TIFF OMITTED] T4914.064

[GRAPHIC] [TIFF OMITTED] T4914.065

[GRAPHIC] [TIFF OMITTED] T4914.066

[GRAPHIC] [TIFF OMITTED] T4914.067

[GRAPHIC] [TIFF OMITTED] T4914.068

[GRAPHIC] [TIFF OMITTED] T4914.069

[GRAPHIC] [TIFF OMITTED] T4914.070

[GRAPHIC] [TIFF OMITTED] T4914.071

[GRAPHIC] [TIFF OMITTED] T4914.072

[GRAPHIC] [TIFF OMITTED] T4914.073

[GRAPHIC] [TIFF OMITTED] T4914.074

[GRAPHIC] [TIFF OMITTED] T4914.075

[GRAPHIC] [TIFF OMITTED] T4914.076

[GRAPHIC] [TIFF OMITTED] T4914.077

[GRAPHIC] [TIFF OMITTED] T4914.078

[GRAPHIC] [TIFF OMITTED] T4914.079

[GRAPHIC] [TIFF OMITTED] T4914.080

[GRAPHIC] [TIFF OMITTED] T4914.081

[GRAPHIC] [TIFF OMITTED] T4914.082

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
